1

    United States Government                                                              Department of Energy


    memorandum
         DATE:   September 30, 2008                               Audit Report Number: OAS-L-08-17
      REPLYlo    IG-34 (A08PT059)
      SuuEcT'    Special Review on "Petroleum-Based Fuels Use"
           To:   Assistant Secretary for Energy Efficiency and Renewable Energy, EE- I


                 INTRODUCTION AND OBJECTIVE

                 In Fiscal Year (FY) 2007, the Department of Energy (Department) consumed over
                 seven million gallons of petroleum-based fuel in the operation of a fleet of over 14,000
                 light, medium and heavy duty vehicles. These vehicles were either owned by the
                 Department or leased through the General Services Administration (GSA). Since April
                 2000, the Department has been subject to a number of executive and legislative
                 mandates to reduce the use of petroleum-based fuel. The Department's mission requires
                 that it assume a leadership role in energy conservation. Further, the practical impact of
                 recent gasoline price increases on the cost of operating a 14,000 vehicle fleet requires
                 aggressive conservation efforts.

                 In May 2002, we issued a report on Alternative Fuels Use at the Department of Energy
                 (DOEIIG-0553) that disclosed the Department's past fuel conservation efforts had not
                 always been satisfactory. Because of deficiencies in its strategy, we found that the
                 Department was unlikely to meet its goal of displacing 20 percent of its petroleum
                 needs through alternative fuels use by 2005. Management concurred with our findings
                 and pledged to take a number of corrective actions designed to increase alternative fuel
                 use. Because of the long standing mandates to reduce fuel usage and the realities of the
                 current energy situation, we conducted this review to determine whether the
                 Department and its contractors are reducing their use of petroleum-based fuels.

                 CONCLUSIONS AND OBSERVATIONS

                 We found that the Department was aggressively pursuing a strategy to reduce its use of
                 petroleum-based fuels and that it appeared to be on track to meet or exceed previously
                 established goals in this area. At the six sites included in our review, officials were
                 promoting the use of alternative fuels and had developed and were applying a number
                 of fuel conservation techniques. Consistent with these actions, management officials
                 reported that the Department:
    r   Exceeded Federal requirements by achieving a 9.7 percent reduction in
        petroleum-based fuels use since FY 2005; and,

        Was on track to achieve a 45 percent reduction by FY 2012.

These results are positive. During our review, however, we identified two additional
actions that, if promptly addressed, may help the Department further reduce fuel use
and better prepare it to adjust to budget and mission impacts associated with volatile
fuel prices. In particular:

        Headquarters program officials had stressed the importance of previously
        established goals, but had not taken specific action in response to recent fuel
        price increases to promote the Department-wide use of site-developed
        conservation techniques; and,

        Two of the sites we visited had developed preliminary FY 2008 fuel price
        budget impact projections showing an unbudgeted increase of $800,000.
        However, the Department had not developed an overall agency-level projection
        or attempted to forecast and formally address the impact of petroleum price
        increases on future operations.

Actions to address these two points, combined with the Department's current and
planned efforts, should place it in a position to meet the challenges of rising fuel prices
and set an example for other Government agencies.

The attachment to this memorandum provides more details on our observations,
conclusions, and suggested actions regarding the use of petroleum-based fuel use.
Because no formal recommendations are being made in this report, a response is not
required. We appreciate the cooperation of your staff and the various Departmental
elements that provided information and assistance.




                                          I
                                   Rickey R. Hass
                                   Assistant Inspector General
                                      for Environment, Science, and Corporate Audits
                                   Office of Inspector General

Attachment

cc: Acting Deputy Secretary
    Chief of Staff
    Director, NNSA Policy and Internal Controls Management, NA-66
    Manager, Idaho Operations Office
Manager, Office of River Protection
Manager, Richland Operations Office
Team Leader, Audit Liaison Team, CF-
Audit Liaison, EE-3A
Audit Liaison, EM-33
Audit Liaison, NE-42
Audit Liaison, SC-41
Audit Liaison, BPA, DN-7
                                                                               Attachment 1


                     Special Review on Petroleum-Based Fuels Use

Federal Requirements

The Department of Energy (Department) is subject to a number of fuel conservation
directives. Executive Order I 3423, Strengthening Federal Environmental, Energy, and
Transportation Management, issued in January 2007,requires agencies to reduce the
use of petroleum-based fuels by two percent annually relative to Fiscal Year (FY) 2005
baselines. Agencies must also increase the use of alternative, non-petroleum based
fuels by 10 percent annually. The Energy Independence and Security Act of December
2007 incorporated the Executive Order's requirements into law and required agencies to
achieve a 20 percent reduction in petroleum consumption and a I0 percent increase in
annual alternative fuel consumption by October 1,2015, relative to FY 2005 baselines.
It also imposed a requirement for agencies to purchase only low greenhouse gas
emitting light and medium duty vehicles. To demonstrate compliance with these
Federal requirements, the Department and other Federal agencies enter fuel and vehicle
use information for each FY into the Federal Automotive Statistical Tool (FAST)
system.

Fuel Alternatives and Conservation Efforts

Our review found that the Department had taken a number of steps to promote the use
of alternatives to traditional petroleum-based fuels. These alternatives included the use
of ethanol, as well as other transportation fuels such as biodiesel made with vegetable
oil or other non-petroleum feedstock. Efforts were underway to increase the number
and utilization of electric, hybrid and alternate fuel vehicles. As indicated by the
statistics cited later in this report, the Department's facilities report that they have made
progress in reducing their dependence on petroleum-based fuels.

The Department's current altemative fuels infrastructure, however, has not fully
matured. For example, refueling stations are often not available and convenient to
Department field locations. The Office of Energy Efficiency and Renewable Energy
(EERE), is currently working with Departmental sites, as well as local communities, to
promote the development of necessary altemative fuels infrastructure. For.example, the
Nevada Test Site and Los Alamos National Laboratory were installing alternative fuel
infrastructure on site. Additionally, EERE has provided information on Federal fleet
altemative fuel vehicle locations to the infrastructure developers and is in the process of
seeking agreements to develop the necessary infrastructure.

During our review, we also noted that Department field sites had identified and were
implementing a number of fuel saving techniques at the local level. In support of the
Department's strategy to decrease the use of petroleum-based fuels, the six sites covered
by our review had promoted conservation techniques such as:
                                                                              Attachment 1


            The purchase of more compact and lighter-duty vehicles;

            Increasing the percentage of electric and hybrid vehicles in their fleets;

           Teleconferencing; and,



Some of these sites had also identified and publicized best practices for decreasing fuel
usage such as avoiding unnecessary idling of engines, ensuring preventative
maintenance was performed, and using the most practical vehicle for the task.
Additionally, Department field activities, as well as other Federal agencies, had begun
to evaluate whether the composition of their fleets (the mix of light, heavy, and
advanced technology vehicles) was appropriate.

PI-ogressAgainst Previously Established Goals

Based on these and related conservation efforts, the Department reported that it had
decreased the use of petroleum fuels by 9.7 percent and increased its use of alternative
fuels by approximately 47 percent since FY 2005. EERE leads the Department's effort
to meet fuels usage goals and tracks conservation efforts. EERE is currently in the
process of conducting visits and analyzing each of the top 20 sites' implementation of
the Department's conservation strategy. In its draft Compliance Strategyfor Executive
Order 13423 and the Energy Independence and Security Act of 2007, dated February
2008, EERE reported that the Department's reduction of petroleum-based fuels use had
exceeded and will continue to exceed established goals based on data reported in the
FAST system. This success is primarily the result of increasing the use of alternative
fuels such as E85 and biodiesel.

Further, a recent study conducted for the Department indicates that the results of its
conservation efforts may be more positive than indicated by FAST data.
Approximately 70 percent of the Department's fleet consists of GSA leased vehicles.
For these vehicles, all fuel purchases are made using a GSA credit card and fuel costs
are included in the annual contract price for the lease of each vehicle. However, the
Department's study noted that because of problems with the way fueling stations report
and bill transactions, data on alternative fuels may have been incorrectly reported as
gasoline purchases. The Department's study, bolstered by information provided by
General Services Administration (GSA), found that 50 to 60 percent of points of sale
transactions were incorrectly coded as to the type of fuel. GSA plans to work with
industry officials to encourage retailers to upgrade their reporting capabilities to more
accurately classify fuel sales.
                                                                             Attachment 1


Dissemination of Best Practices
We observed that a number of steps have been taken to reduce petroleum-based fuel
consumption. Our review disclosed, however, that the Department, at the Headquarters
program level, had not formally emphasized mechanisms to combat recent fuel price
increases. Specifically. Headquarters program offices had not developed or published
guidance to encourage increased conservation efforts and had not established a formal
mechanism to collect and publish site-level conservation best-practices. To put this
point in perspective, we did find that program officials stressed compliance with
existing Federal goals for reducing petroleum demand. However, it was not evident
that they took specific actions to accelerate conservation in response to the recent
volatility in fuel prices. Some program managers told us that site-level and other
agency best practices were discussed at a recent GSA Federal Fleet Manager's
Conference, but that formal mechanisms had not been developed for sharing such
information across the Department.

Budget Impact

 Additionally, we observed that the Department had not taken action to estimate the
aggregate impact of fuel prices and budget implications on future operations. Increased
fuel prices have led to significant increases in the cost to operate all vehicles. In April
2008. GSA implemented a fuel surcharge to recover the rapidly escalating costs of both
petroleum based and alternative fuels. This additional fee has a significant, real-time
impact on Departmental site budgets. At two of the sites visited, we learned that
officials had prepared preliminary projections that estimated the impact of increased
fuel costs of $300,000 and $500,000, respectively, for FY 2008. While these forecasts
provide some insight as to potential impact of price increases now and in the future,
none of the six sites reviewed had developed formal strategies to address future mission
impacts. Such projections are likely to be particularly relevant as GSA anticipates that
the FY 2009 lease rate will be increased to fully incorporate fuel price increases. Sites
also need to specifically consider the increasing cost of operating vehicles using
alternative fuels when preparing their estimates because these fuels are generally less-
efficient than petroleum-based fuels.

CONCLUSION1 SUGGESTED ACTIONS

Our overall conclusion based on the review of the six sites visited was that the
Department has taken a number of positive steps to promote fuel conservation and use
of alternative fuels at its field activities. However, in today's environment of volatile
petroleum-based fuel prices, the Department needs to take advantage of every
opportunity to decrease its use and become a model for other Federal agencies to
follow. Therefore, we suggest that the Assistant Secretary for EERE in conjunction
with the National Nuclear Security Administration and applicable Department program
offices take the following actions:
                                                                   Attachment I


Share its best practices throughout the Agency and identify, on an ongoing
basis, additional opportunities to reduce the use of petroleum-based fuels,
including, where possible, the use of advanced technology vehicles; and,

Develop:

   1 . Supplemental guidance to promote fuel conservation techniques; and,

  2. A projection of the budget impacts of rising fuel costs and a plan to
     address future impacts on mission.
                                                                         Attachment 2


                          SCOPE AND METHODOLOGY

OBJECTIVE

To determine whether the Department of Energy (Department) and its contractors are
reducing their use of petroleum-based fuels.

SCOPE

We conducted the review from June 2008 to August 2008 at Department Headquarters
in Washington, D.C.;the Idaho National Laboratory (Idaho) in Idaho Falls, ID; the
Nevada Test Site (Nevada) in Nye County, NV; the Bonneville Power Administration
(BPA) in Portland, OR; the Los Alamos National Laboratory (LANL) in Los Alamos,
NM; and the Hanford Site (Hanford) and Pacific Northwest National Laboratory
(PNNL) in Richland, WA.


METHODOLOGY

To accomplish the audit objective, we:

       Reviewed applicable Federal regulations, Department Orders and Manuals, and
       other guidance related to reducing the use of petroleum-based fuels;

       Reviewed fuel use and vehicle information contained in the Federal
       Automotive Statistical Tool database;

       Reviewed and analyzed monthly reports since June 2007 for General Service
       Administration leased vehicles;

       Reviewed and analyzed fuel usage reports since June 2007 for Department-
       owned vehicles;

       Obtained information from fleet management officials at Idaho, Nevada, BPA.
       LANL, Hanford ,and PNNL regarding actions taken to reduce the use of
       petroleum-based fuels;

       Held discussions with Headquarters officials regarding programmatic
       responsibilities relative to reducing petroleum-based fuels; and,

       Held discussions with other Federal agencies regarding action taken to reduce
       petroleum-based fuel usage.
